HHS/OIG-Audit-"Review of Overpayment Collections Made for the Former Aid to Families With Dependent Children (AFDC) Program by the State of Montana," (A-08-02-03003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections Made for the Former Aid to Families
With Dependent Children (AFDC) Program by the State of Montana," (A-08-02-03003)
July 1, 2002
Complete Text of Report is available in PDF format
(620 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective
of this review was to determine whether the Montana Department of Public Health
and Human Services (PHHS)  has continued to identify, collect, and remit
the Federal share of Aid to Families with Dependent Children overpayments to
the Federal government after the program was repealed.  During the period
October 1, 1996 through December 31, 2001, the PHHS collected overpayments totaling
$430,498 (Federal share).  The PHHS remitted $435,463 to the U.S. Department
of Health and Human Services, Administration for Children and Families (ACF)
between October 1996 and February 2002.  The resulting excess of $4,965
remitted to the ACF will be adjusted in the payment to ACF for the quarter ended
March 31, 2001.